       NEW MEXICO HIGHLANDS UNIVERSITY
c/o Office of the Vice President for Finance and Administration
                           Box 9000
                 Las Vegas, New Mexico 87701

        National Science Foundation Award Numbers
                       ESR-9554468
                       DUE-0094896
                       EAR-0216556


                       Financial Audit
                              of
                     Financial Schedules
                             and
                Independent Auditors’ Reports

         For the Period July 1, 1999 to July 31, 2004




                                                This audit was performed by:

                                          M.D. Oppenheim & Company, P.C.
                                                Certified Public Accountants
                                            485 U.S. Highway 1, Building C
                                             Iselin, New Jersey 08830-4100
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
                                 Table of Contents


                                                                           Page
Acronyms                                                                      1


Executive Summary:
Background                                                                    3
Audit Objectives, Scope And Methodology                                       4
Summary of Audit Results                                                      5
Exit Conference                                                               8


Findings and Recommendations:
Independent Auditors’ Report on Financial Schedules                          10
Independent Auditors’ Report on Compliance with Laws and Regulations and
  Internal Control Over Financial Reporting                                  12
Schedule A-1 – Schedule of Award Costs (NSF Award No. ESR-9554468)           23
Schedule A-2 – Schedule of Award Costs (NSF Award No. DUE-0094896)           24
Schedule A-3 – Schedule of Award Costs (NSF Award No. EAR-0216556)           25
Schedule B-1 – Schedule of Questioned Costs (NSF Award No. ESR-9554468)      26
Schedule B-2 – Schedule of Questioned Costs (NSF Award No. DUE-0094896)      29
Schedule C-1 – Schedule of Adjustments and Reclassifications
 (NSF Award No. ESR-9554468)                                                 30
Schedule D – Schedule of Cost Sharing (NSF Award No. ESR-9554468)            31
Schedule D-1 – Summary Schedule of Questioned Cost Sharing
 (NSF Award No. ESR-955468                                                   32
Schedule D-1a to D-1e – Detailed Schedule of Questioned Cost Sharing
 (NSF Award No. ESR-9554468)                                                 33
Schedule E – Summary Schedule of Awards Audited and Audit Results            42
Notes to Financial Schedules                                                 44


APPENDIX A – AUDITEE’S COMMENTS TO REPORT                                    46
Acronyms



Acronym    Explanation of Acronym

ASU        Arizona State University

BPS        Bernalillo Public Schools

DACS       Division of Acquisition and Cost Support

DGA        Division of Grants and Agreements

DIAS       Division of Institution and Award Support

FCTR       Federal Cash Transactions Report

GPM        Grant Policy Manual

GSA        General Services Administration

MTDC       Modified Total Direct Costs

NMHU       New Mexico Highlands University

NSF        National Science Foundation

OIG        Office of Inspector General

OMB        Office of Management and Budget

PI         Principal Investigator

RSI        Rural Systemic Initiative




                                                       1
EXECUTIVE SUMMARY




                    2
BACKGROUND

We audited funds awarded by the National Science Foundation (NSF) to New Mexico
Highlands University (NMHU) under award numbers ESR-9554468, DUE-0094896, and
EAR-0216556 for the period July 1, 1999 to July 31, 2004. NMHU, formerly known as New
Mexico Normal University, was established in 1893 and provides academic instruction
through four-year programs leading to degrees under Bachelor of Arts, Bachelor of Science,
Bachelor of Social Work, or Bachelor of Science in Engineering. The University also offers
limited graduate programs.

NMHU, as a Federal awardee, is required to follow the cost principles specified in Office of
Management and Budget (OMB) Circular A-21, Cost Principles for Educational Institutions
and federal administrative requirements contained in OMB Circular A-110, Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals, and Other Non-Profit Organizations. The following information is
pertinent for each of the awards under audit.


No. ESR-9554468. NSF awarded a cooperative agreement no. ESR-9554468 to NMHU for
the period September 15, 1995 to August 31, 2000 in the amount of $9,500,000 to operate a
Rural Systemic Initiative (RSI) Program in the States of Utah, Colorado, Arizona and New
Mexico. The overall mission of the RSI program was to improve scientific and mathematical
literacy and achievement of all students in rural, economically disadvantaged regions; to
provide the mathematics and science fundamentals to permit all students to participate fully
in technological society; and to empower a significantly greater number of students to pursue
careers in mathematics, science, engineering and technology. On June 28, 2000, NSF
notified NMHU that it would not continue the RSI Program with NMHU since their program
continuation proposal “did not receive ratings that were sufficient to merit discussion for
possible funding.” As a result, NSF granted a phase down period that terminated the award
on May 31, 2001. Total cost share required for this award was $5,549,616.

We conducted our audit of this award for the period July 1, 1999 to May 31, 2001.
Cumulative disbursements for grant number ESR-9554468 reported to NSF for the audit
period were $2,879,551. NMHU also claimed $2,125,431 of cost sharing to NSF for the
audit period but incurred total cost share of $2,347,439. Cost sharing required for the audit
period was $1,110,493.


No. DUE-0094896. NSF awarded grant no. DUE-0094896 to NMHU for the period March
1, 2001, to February 28, 2003 in the amount of $101,248 for the purpose of awarding
scholarships to minority students enrolled in degree programs in computer science and
mathematics. The program provided thirty scholarships to junior and senior students. These
scholarships were to be awarded to ten students in the first year of the program and to twenty
students in the second year of the program. Cumulative disbursements for grant number
DUE-0094896 reported to NSF through February 28, 2003 (the end of the award period)
were $101,248. NMHU was not required to provide cost sharing for this award.



                                                                                            3
EAR-0216556:

No. EAR-0216556. NSF awarded grant no. EAR-0216556 to NMHU for the period August
15, 2002 to July 31, 2004 in the amount of $91,188 to purchase “Powder X-Ray Diffraction
and Spectroscopy Instrumentation” to conduct mineral and soil research. Cumulative
disbursements for grant number EAR-0216556 reported to NSF through July 31, 2004 (the
end of the award period) were $91,188. NMHU was not required to provide cost sharing for
this award.

AUDIT OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of our audit engagement were to:
   1. Determine whether NMHU’s Schedules of Award Costs present fairly, in all material
      respects, the costs claimed on the Federal Cash Transactions Reports (FCTR) –
      Federal Share of Net Disbursements and if the costs claimed, including cost sharing,
      are in conformity with Federal and NSF award requirements.
   2. Identify matters concerning instances of noncompliance with laws, regulations, and
      the provisions of the award agreements pertaining to the NSF awards and weaknesses
      in NMHU’s internal control over financial reporting that could have a direct and
      material effect on the Schedules of Award Costs and NMHU’s ability to properly
      administer, account for, and monitor its NSF awards.
   3. Determine whether the costs incurred under subcontracts awarded by NMHU to
      Arizona Tribal Coalition/Arizona State University and New Mexico County
      Coalition/Bernalillo Public Schools, were documented and allowable under the terms
      and conditions of the subcontract agreements, NSF and Federal regulations, based
      upon performing on-site audits.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; Government Auditing Standards (June 2003 Revision) issued by
the Comptroller General of the United States; and the National Science Foundation Audit
Guide, September 1996, as applicable. These standards and the National Science
Foundation Audit Guide require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed to the National Science Foundation as
presented in the Schedules of Award Costs (Schedules A-1 to A-3), are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts
and disclosures in the Schedules of Award Costs (Schedules A-1 to A-3). An audit also
includes assessing the accounting principles used and significant estimates made by NMHU,
as well as evaluating the overall financial schedules’ presentation. We believe that our audit
provides a reasonable basis for our opinion.




                                                                                            4
SUMMARY OF AUDIT RESULTS

We performed an audit on the costs claimed in financial reports submitted to the National
Science Foundation as well as cost sharing provided by NMHU on the NSF awards audited.
Only one of the three awards audited required cost sharing. These costs and costs questioned
are shown in the Schedules of Award Costs (Schedules A-1 to A-3) and are summarized as
follows:

                                                                                 Questioned
   Award               Award                                     Questioned        Cost
   Number              Budget            Claimed Costs           NSF Costs        Sharing

ESR-9554468          $ 9,500,000   (A)    $ 2,879,551      (B)     $ 160,783
DUE-0094896              101,248   (D)         53,870      (F)         4,689
EAR-0216556               91,188   (E)         91,188                     -0-

Total                $ 9,692,436          $ 3,024,609              $ 165,472

Cost Sharing
 on ESR-             $ 5,549,616(A)       $ 2,347,439(C)                         $ 1,959,263
 9554468
(A) For the award period September 15, 1995, to May 31, 2001.
(B) Costs claimed for the audit period July 1, 1999, to May 31, 2001.
(C) For the period October 1, 1999, to September 30, 2000, NMHU claimed $2,125,431 of
    cost share. However, NMHU incurred additional cost sharing of $220,008 during this
    period which was not claimed to NSF.
(D) For the period March 3, 2001 to February 28, 2003. This period comprises both the
    award period and the audit period.
(E) For the period August 15, 2002 to July 31, 2004. This period comprises both the award
    period and the audit period.
(F) Original claimed costs to NSF were $101,248. However, $46,458 was refunded by
    NMHU to NSF as a result of this audit because NMHU inaccurately reported
    expenditures on its FCTR because it did not reconcile the costs it claimed on the
    FCTRs it submitted to NSF to its official books of record.

Except for the $165,472 in questioned salaries and wages, fringe, travel, consultants,
subawardees, materials and supplies, and participant support costs, we determined that the
costs claimed by NMHU appear fairly stated and are allowable, allocable, and reasonable.
Specifically, we questioned $81,787 of subawardee costs and $12,720 of travel, material and
supplies, and consultant costs due to lack of documentation; $60,000 for the purchase of
materials and supplies at the very end of the grant period for which the auditee could not
explain how these purchases benefited the NSF program; $6,276 of salaries and wages,
related fringe and indirect cost charged to the award for a professor who did not work on the
NSF program; and, $4,689 of scholarship costs paid for students who were not eligible to

                                                                                           5
participate in the NSF program. Additionally, we questioned $1,959,263 of cost share due to
a lack of adequate supporting documentation.

NMHU had a number of internal control deficiencies which we consider to be material. In
general, NMHU’s systems of internal controls were not adequate to properly administer,
account for, and monitor its NSF awards in compliance with NSF and federal grant
requirements in the areas of cost sharing, fiscal monitoring of subaward recipients,
expenditure reporting, and conflict of interest disclosures. Specifically:

   •   NMHU lacked a system to identify, account for and monitor the cost share it
       attributed to NSF award no. ESR-9554468, raising questions as to the reliability and
       integrity of the $2,125,431 that it claimed on its certified cost sharing reports to NSF.
       NMHU’s accounting system, while it captured all expenses, did not separately
       identify and track those expenses incurred as cost sharing for its NSF award or
       provide adequate documentation. Thus, NMHU could not readily identify in its
       accounting records the cost sharing amounts it had claimed to NSF. Moreover,
       University management indicated that to support cost sharing amounts claimed to
       NSF, program officials maintained an electronic spreadsheet on a computer in the RSI
       Program Office. However, NMHU sold the computer after the program ended and
       thus, the electronic spreadsheet was lost. Likewise, NMHU acknowledged that they
       did not have written policies and procedures for the identification, monitoring or
       reporting of cost share.

   •   NMHU lacked an adequate system and policies and procedures for the monitoring
       and the reporting of subawardee costs it incurred for its NSF award. Therefore,
       NMHU was unable to monitor the subawardee costs it claimed to NSF to ensure those
       costs were allowable. As a result of this internal control deficiency, we were required
       to perform additional on-site procedures at two NMHU’s subawardees to satisfy
       ourselves that the subawardee costs charged to the NSF grant were allowable. As a
       result of our additional procedures, we questioned $81,787 of subawardee costs due to
       lack of supporting documentation maintained by these subawardees.

   •   NMHU inaccurately reported expenditures on its NSF awards because it did not
       reconcile the costs it claimed on the FCTRs it submitted to NSF to its official books
       of record. This internal control deficiency resulted in NMHU over claiming costs of
       $46,458 on grant DUE-0094896. Once informed during the audit, NMHU
       reimbursed NSF for these costs on July 7, 2005.

   •   NMHU could not provide conflict of interest disclosure statements for either the PIs
       or Co-PIs for any of its NSF awards. These conflict of interest disclosure statements
       were unavailable even though NMHU maintains a conflict of interest policy that is in
       compliance with NSF Grant Policy Manual.

Accordingly, we recommend that the NSF Directors of the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA) direct NMHU to a)
establish a system to identify, account for, monitor, report, and document cost sharing; b)
establish a system, including policies and procedures, to monitor subaward costs and
                                                                                          6
accurately report those costs to NSF; c) develop and implement policies and procedures that
require the reporting to NSF of actual costs incurred for NSF grants as recorded in NMHU’s
official books and records, including reconciliation procedures to ensure that costs reported
to NSF are equal to amounts recorded in NMHU’s official books and records; and d) ensure
that all PIs and Co-PIs complete and NMHU maintains conflict of interest disclosure forms.

The awardee responded to the draft report on September 7, 2006. In its response, NMHU
stated that it is combining its compliance and accounting functions and in 2006/2007 will
implement an accounting system grant module that will track cost sharing. NMHU also
responded that its grant accounting office is now verifying cost sharing and in-kind
contributions. NMHU officials also stated they have taken steps to improve their
subawardee monitoring. However, NMHU disagrees with the $1,959,263 of questioned cost
share and the $81,787 of questioned subawardee costs. The awardee also disagreed that the
$60,000 purchase of Casio hand held calculators at the end of the NSF grant period did not
benefit the NSF program and disagreed

NMHU did agree that it had inaccurate and unallowable expenditure reporting and that it
could not provide conflict of interest disclosures for its NSF program PIs and Co-PIs.
NMHU also agreed with the $6,276 of questioned salaries and wages and the $4,689 of
questioned scholarship costs.

NMHU’s response has been summarized within the body of the report and has been included
in Appendix A. NMHU also submitted additional documentation and materials related to
corrective actions it has taken with regard to newly implemented policies, procedures and
practices. Because these materials are voluminous, they are contained in a separate volume
of this report and are available upon request from the NSF OIG.

The findings in this report should not be closed nor should additional awards be made to
NMHU until NSF has determined that all the recommendations have been adequately
addressed. NMHU should also be flagged in the NSF award system for a follow-up review
should future additional funding be provided, to ensure that all the corrective actions
proposed to address all the recommendations in this audit have been addressed.

For a complete discussion of the audit findings, refer to the Independent Auditor’s Report on
Compliance with Laws and Regulations and Internal Control Over Financial Reporting.




                                                                                           7
EXIT CONFERENCE

We conducted an exit conference on July 28, 2005, at NMHU. We discussed findings and
recommendations as well as other observations contained in this report with those attending.

Representing NMHU were:

     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
     XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

Representing M.D. Oppenheim & Company, P.C. were:

     Richard L. Sobine LPA, Audit Manager
     Andreas Savva, Staff Accountant




                                                                                          8
FINDINGS AND RECOMMENDATIONS




                               9
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

       INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited costs claimed by New Mexico Highlands University (NMHU) to the
National Science Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) for
the NSF awards listed below. In addition, we audited the amount of cost sharing claimed on
award number ESR-9554468. The FCTRs, as presented in the Schedules of Award Costs
(Schedules A-1 through A-3) are the responsibility of NMHU’s management. Our
responsibility is to express an opinion on the Schedules of Award Costs (Schedules A-1
through A-3) based on our audit.

          Award
          Number                  Award Period                    Audit Period
       ESR-9554468             09/15/95 to 05/31/01           07/01/99 to 05/31/01
       DUE-0094896             03/01/01 to 02/28/03           03/01/01 to 02/28/03
       EAR-0216556             08/15/02 to 07/31/04           08/15/02 to 07/31/04

Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America; Government Auditing
Standards (2003 Revision) issued by the Comptroller General of the United States; and the
National Science Foundation Audit Guide, September 1996, as applicable. These standards
and the National Science Foundation Audit Guide require that we plan and perform the audit
to obtain reasonable assurance about whether the amounts claimed to NSF as presented in the
Schedules of Award Costs (Schedules A-1 through A-3), are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedules of Award Costs (Schedules A-1 through A-3). An audit also
includes assessing the accounting principles used and significant estimates made by
NMHU’s management, as well as evaluating overall financial schedule presentation. We
believe that our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared to comply with the requirements of the
National Science Foundation Audit Guide as described in the Notes to the Schedules, and are
not intended to be a complete presentation of NMHU’s financial position in conformity with
accounting principles generally accepted in the United States of America.

                                                                                        10
The Schedules of Questioned Costs (Schedules B-1 and B-2) explains the $165,472 (6%) of
NSF funded costs that we questioned for allowability. These questioned costs include travel,
consultants, and subawardees costs; and, the purchase of materials and supplies at the very
end of the grant period for which the auditee could not explain how these purchases
benefited the NSF program. These questioned costs also include unallowable salary, wages,
fringe, indirect, and participant support costs. The Schedule of Cost Sharing for award ESR-
9554468 (Schedule D) explains that $1,959,263 (92%) of the total cost share claimed by
NMHU during the audit period July 1, 1999 to May 31, 2001 was questioned due to lack of
supporting documentation.

Questioned costs are (1) costs for which there is documentation that the recorded costs were
expended in violation of the laws, regulations or specific award conditions, (2) costs that
require additional support by the awardee, or (3) costs that require interpretation of
allowability by NSF’s Division of Institution and Award Support (DIAS). The final
determination as to whether such costs are allowable will be made by NSF. The ultimate
outcome of this determination cannot presently be determined. Accordingly, no adjustment
has been made to costs claimed for any potential disallowance by NSF.

In our opinion, except for $165,472 of questioned NSF funded costs, the Schedules of Award
Costs (Schedules A-1 through A-3) referred to above present fairly, in all material respects,
costs claimed on the Federal Cash Transactions Reports and cost sharing claimed for the
period July 1, 1999 to July 31, 2004, in conformity with the National Science Foundation
Audit Guide, NSF Grant Policy Manual, the terms and conditions of the NSF awards, and on
the basis of accounting policies described in the Notes to the Financial Schedules. These
schedules are not intended to be a complete presentation of financial position in conformity
with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and the provisions of the National
Science Foundation Audit Guide, we have also issued a report dated July 28, 2005, on our
tests of NMHU’s compliance with certain provisions of laws, regulations, and the NSF
award agreements, and our consideration of NMHU’s internal control over financial
reporting. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.

This report is intended solely for the information and use of NMHU’s management, NSF,
NMHU’s cognizant federal agency, the Office of Management and Budget, and the Congress
of the United States of America and is not intended to be, and should not be used, by anyone
other than these specified parties.




July 28, 2005



                                                                                          11
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                   INDEPENDENT AUDITORS’ REPORT ON
              COMPLIANCE WITH LAWS AND REGULATIONS AND
              INTERNAL CONTROL OVER FINANCIAL REPORTING

We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A-1
through A-3), which summarize financial reports submitted by New Mexico Highlands
University (NMHU) to the National Science Foundation (NSF) for the awards listed below
and claimed cost sharing for award No. ESR-9554468 and have issued our report thereon
dated July 28, 2005.

          Award
          Number                   Award Period                    Audit Period
       ESR-9554468             09/15/95 to 05/31/01            07/01/99 to 05/31/01
       DUE-0094896             03/01/01 to 02/28/03            03/01/01 to 02/28/03
       EAR-0216556             08/15/02 to 07/31/04            08/15/02 to 07/31/04

We conducted our audit of the Schedule of Award Costs as presented in Schedules A-1
through A-3 in accordance with auditing standards generally accepted in the United States of
America; Government Auditing Standards (2003 revision), issued by the Comptroller
General of the United States; and the National Science Foundation Audit Guide, September
1996, as applicable. These standards and the National Science Foundation Audit Guide
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedules are free of material misstatement.

COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable federal laws, regulations, and NSF award terms and conditions
is the responsibility of NMHU’s management. As part of obtaining reasonable assurance
about whether the financial schedules are free of material misstatement, we performed tests
of NMHU’s compliance with certain provisions of applicable laws, regulations, and NSF
award terms and conditions, noncompliance with which could have a direct and material
effect on the determination of the financial schedule amounts. However, providing an
opinion on compliance with these provisions is not an objective of our audit, and
accordingly, we do not express such an opinion.


                                                                                         12
The results of our tests of compliance disclosed instances of noncompliance that are required
to be reported under Government Auditing Standards and the National Science Foundation
Audit Guide; see Findings 1 through 4, below.

INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of the Schedules of Award Costs for the period July 1,
1999 through July 31, 2004, we considered NMHU’s internal control over financial reporting
in order to determine our auditing procedures for the purpose of expressing our opinion on
the financial schedules and not to provide an opinion on the internal control over financial
reporting. Accordingly, we do not express such an opinion.

We noted, however, certain matters described below involving internal control over financial
reporting and its operation that we consider to be reportable conditions under standards
established by the American Institute of Certified Public Accountants. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could
adversely affect NMHU’s ability to record, process, summarize and report financial data
consistent with management’s assertions in the financial schedules. Reportable conditions
we found are described in Finding Nos. 1 through 4 below.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control elements does not reduce, to a relatively low level, the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control over
financial reporting would not necessarily disclose all matters related to internal control over
financial reporting that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions also considered to also be material weaknesses.
We consider all of the reportable conditions described below to be material weaknesses.




                                                                                            13
FINDINGS

Finding 1. Lack of System to Identify, Account for, Monitor and Report Cost Sharing

NMHU lacked a system to identify, account for and monitor the cost sharing it attributed to
NSF award number ESR-9554468, raising questions as to the reliability and integrity of the
$2,125,431 (including $2,044,131 reported to NMHU by its subawardees) NMHU claimed
as cost sharing for the period July 1, 1999 to May 31, 2001 on its certified reports to NSF.
Only one of the three awards audited required cost sharing.

NSF’s Grant Policy Manual (GPM) Section 333.6, Cost Sharing Records and Reports and
OMB Circular A-110, Subpart C, Section 23, require grantees to maintain records of all costs
claimed as cost sharing, and states that those records are subject to audit. These regulations
also state that cost-sharing expenses must be verifiable from the recipient’s records, not be
included as contributions to any other federal award, or funded by any other federal award.
Circular A-110, Section 23, also states that to be accepted as part of the recipient’s cost
sharing, the expenditures must be necessary and reasonable for proper and efficient
accomplishment of project or program objectives and allowable under the applicable cost
principles.

NMHU’s accounting system, while it captured all expenses, did not separately identify and
track those expenses incurred and reported by NMHU and its subawardees as cost sharing for
its NSF award. Thus, NMHU could not readily identify in its accounting records the cost
sharing amounts it had claimed to NSF.

NMHU management indicated that to support cost sharing amounts it had claimed under the
NSF award, program officials maintained an electronic spreadsheet on a computer in the RSI
Program office. According to the RSI Program Executive Director, NMHU sold the
computer after the program ended and thus, the electronic spreadsheet was subsequently lost.
No hard copies of this spreadsheet were maintained in program files.

During the audit, NMHU attempted to reconstruct and document the cost sharing it claimed
to NSF by contacting RSI Program Coalition Members or their fiscal agents to obtain
supporting documentation. This attempt to reconstruct cost sharing records was not
successful because either the coalition members did not maintain cost sharing records or the
cost sharing records that were requested were lost or destroyed due to the age of the records
(e.g., 1999/2000 time period).

Likewise, NMHU representatives acknowledged that they did not have written policies and
procedures for the identification, monitoring or reporting of cost sharing. Additionally,
NMHU representatives did not appear to understand that cost sharing expenditures had to be
verifiable from the awardee’s records, adequately supported by source documentation,
certified and reported to NSF accurately and annually, and be allowable under federal and
NSF grant requirements. As such, NMHU was unable to monitor cost sharing expenditures
to ensure that costs claimed were allowable and in compliance with the cost share
commitment as required by the NSF award.

                                                                                           14
Moreover, $2,044,131 or 96% of the cost sharing NMHU claimed to NSF was attributable to
the six subawardees of the RSI program. However, as detailed in Finding Number 2, below,
NMHU did not monitor its subawardee costs. Thus, NMHU did not verify either through
inquiry or inspection of source documentation, the accuracy of subawardee cost sharing
amounts reported to NSF.

Because NMHU could not provide adequate documentation, we questioned $1,959,263 of
cost sharing claimed by NMHU on its certified reports to NSF. See Schedules D to D1-e for
a detailed explanation of the questioned cost sharing. As stated in GPM 333.3, a failure to
provide the level of cost sharing reflected in the approved award may result in disallowance
of award costs. However we did not calculate the impact of the lack of cost share on direct
costs at this time because we did not audit cost sharing amounts claimed by NMHU to NSF
for the period prior to July 1, 1999.

Recommendation 1

We recommend that the NSF Division Directors for the Division of Institution and Award
Support (DIAS) and the Division of Grants and Agreements (DGA) direct NMHU to
establish a system to identify, account for, monitor, and report cost sharing expenses and, at a
minimum, ensure that:

       a. Cost sharing for NSF funds is separately tracked, accounted for, and verifiable in
          NMHU’s accounting records; is not included as contributions for any other
          federally-assisted project or program; is necessary and reasonable for proper and
          efficient accomplishment of project and program objectives; is allowable under
          applicable cost principles; and is not paid by the Federal government under
          another award;

       b. All NSF awards with cost sharing requirements are identified and reported to
          NMHU’s Accounting Department so they can be adequately recorded and tracked
          as required by NSF’s award agreements;

       c. Cost sharing costs incurred and claimed on NSF awards are appropriately
          reviewed, approved, and recorded as they occur to establish that they are
          reasonable, allocable, and allowable to NSF awards;

       d. Cost sharing records for NSF awards are adequately maintained and documented;
          and,

       e. Cost sharing policies and procedures are developed, consistent with NSF
          requirements, documented in writing, and communicated to appropriate NMHU
          staff.

Auditee’s Response

NMHU officials stated that they are combining the compliance and accounting functions and
in 2006/2007 will implement an accounting system grants module that will track cost
sharing. NMHU’s grant accounting department is now verifying cost share and in-kind
                                                                                       15
contributions and ensuring that its claimed cost share is in compliance with federal
regulations. However, NMHU officials disagreed with the $1,959,263 in questioned cost
sharing. In addition, NMHU’s response included numerous comments and documents
related to the cost sharing questioned in the amount of $1,959,263. These responses are
presented in Schedules D-1a to D-1e of this report. Finally, NMHU stated that the documents
required to support the cost sharing were beyond the record retention period.

Auditors’ Comment

In regards to the $1,959,263 of questioned cost sharing, we reviewed the NMHU responses
and documents submitted and based upon that review the questioned costs remain as stated
because adequate supporting documentation such as general ledgers, payroll records, paid
invoices, and vouchers either was not available or did not explain how the costs were related
to the NSF program. Our detailed response to each of NMHU’s response is also included in
Schedules D-1a to D-1e of this report. Finally, NMHU’s assertion that the record retention
period had expired is incorrect. Per the NSF Grant Policy Manual, Section 350, Records
Retention and Audit, “Financial records, supporting documents, statistical records and other
records pertinent to a grant will be retained by the grantee for a period of three years from
submission of the Final Project Report.” The Final Project Report was filed by NMHU to
NSF in October 2002, therefore requiring the records to be available thru October 2005,
which was after the completion of this audit in July 2005. Thus, this finding remains open
and cannot be resolved until all recommendations have been adequately addressed and NSF
verifies that the proposed corrective actions have been satisfactorily implemented.

Finding 2. Lack of Adequate Fiscal Monitoring of Subawardee Costs

NMHU lacked an adequate system and policies and procedures for the monitoring and the
reporting of subawardee costs it incurred for its NSF award. As such, we were required to
perform additional on-site audit procedures at two NMHU’s subawardees to determine if
$2,218,038 of subawardee costs charged by NMHU to NSF award ESR-9554468 were
allowable and allocable. Our alternative procedures resulted in the questioning of $81,787
of costs charged by NMHU to its NSF award due to lack of supporting documentation. We
also determined that NMHU lacked an adequate system to fiscally monitor its subaward
recipients.

OMB Circular A-110, Subpart C, Section .51 (a), requires recipients to manage and monitor
each project, program and subaward. In addition, Subpart C, Section .21 (b) (1) requires
accurate, current and complete disclosure of the financial results of each federally-sponsored
project or program. NSF Award number ESR-9554468, amendment number three, also
required NMHU to monitor all subcontracts and subawards it entered into that were
supported with NSF funds in accordance with the applicable Federal cost principles and
administrative requirements.

NMHU had seven subaward recipients (also referred to as “Coalition Members”) under NSF
award ESR-9554468. These seven subawards represented 77 percent of the total costs
NMHU claimed on its award to NSF for the period July 1, 1999 to May 31, 2001. Despite
the materiality of its subawardee costs, NMHU did not have an adequate system in place to
monitor such costs. NMHU did not separately track the costs it incurred for each of its
                                                                                      16
subawardees. Instead, NMHU recorded all its subawardee costs in its accounting system in
an account entitled “Professional Services.” This account was also used to track other types
of service costs in addition to subawardee costs. Thus, the subawardee costs incurred by
NMHU were mingled with other types of costs within the account.

Although NMHU provided us with a summary total of subawardee costs incurred by fund
and by fiscal year, NMHU could not determine the actual costs it incurred for each
subawardee under its NSF grant because it did not track subawardee costs by specific
subawardee organization. Thus, the University could not determine if the amounts it paid to
each subawardee were in compliance with the NSF approved program budget for each
subawardee.

Moreover, as a result of audit procedures conducted at NMHU, we determined that NMHU
did not maintain in a centralized location, copies of subawardee agreements, contract
modifications, applicable budgets, or invoices. NMHU also did not maintain a summary
listing of subawardee contact information (i.e., name of the coalition member, contact
person’s name, telephone number and address) and thus, the University could neither explain
what goods or services were received from subawardees for costs charged to its NSF grant
nor provide us with subawardee contact information.

We also learned from NMHU personnel that the University does not have written policies
and procedures for the fiscal monitoring of its subawardees. NMHU management indicated
that because program and the fiscal staff from the time period of the RSI program were no
longer employed at the University, they could not fully explain the reasons for the lack of
fiscal monitoring of its subawardees.

As aforementioned, because of NMHU’s lack of fiscal monitoring of subaward costs, we
were required to perform additional on-site audit procedures at two of NMHU’s
subawardees, Arizona State University and Bernalillo Public Schools. At Arizona State
University, we questioned $4,793 because Arizona State University could not provide vendor
invoices or other supporting documentation for costs it claimed to NMHU. At Bernalillo
Public Schools, we questioned $76,994 of costs claimed to NMHU for the NSF grant also
due to lack of adequate documentation. This amount included $51,893 (100%) for
unsupported salaries and wages and fringe benefits (See Schedule B-1). Therefore, while we
did not find material questioned costs at the subawardees, inadequate oversight procedures at
NMHU posed considerable and serious risk for misuse, loss, or theft of NSF funds.

Recommendation 2

We recommend that NSF Division Directors for DIAS and DGA require that NMHU
establish a system and policies and procedures to monitor its subaward costs and accurately
report those costs to NSF; ensure that NMHU tracks subawardee costs by subawardee
organization; and maintain appropriate documentation to support subawardee costs charged
to NSF grants.




                                                                                          17
Auditee’s Response

NMHU identified steps it took to monitor its subawardees and indicated that in fiscal year
2004 it implemented additional procedures to verify that all subawardee costs it claimed
were in compliance with federal regulations. NMHU also stated that it did not agree to the
$81,787 of questioned subawardee costs.

Auditors’ Comment

NMHU stated that additional submonitoring procedures were implemented in fiscal year
2004. However, NMHU did not provide any additional documentation to support the
questioned costs of $81,787. Thus, the finding remains remain as stated and cannot be
resolved until all recommendations have been adequately addressed and NSF verifies that the
proposed corrective actions have been satisfactorily implemented.

Finding 3. Inaccurate and Unallowable Expenditure Reporting

NMHU inaccurately reported expenditures on its NSF awards as follows:

          • Costs reported by NMHU to NSF for award number DUE-0094896 on the
            FCTR for the period March 1, 2001 to February 28, 2003 did not agree with
            NMHU’s official accounting books and records. These differences occurred
            in the FCTRs for the quarters ended June 30, 2002, June 30, 2003 and March
            31, 2004 in the amounts of $920, $(14,067) and $(33,311), respectively, for a
            total over claim of $46,458 for this grant. As a result of our audit findings,
            NMHU refunded this amount to NSF on July 7, 2005.
          • Costs reported by NMHU to NSF for award number ESR-9554468 also did
            not agree with NMHU’s official books and records. However, in this instance,
            costs were under claimed on the FCTR for the quarters ended June 30, 2000
            and June 30, 2001 in the amounts of $94,715 and $39,152, respectively, for a
            total underclaim of $133,867.

NMHU reported unallowable expenditures on its NSF awards as follows:

          • For NSF award ESR-9554468: $60,000 for the purchase of materials and
            supplies at the very end of the grant period for which the auditee could not
            explain how these purchases benefited the NSF program; and $6,276 of
            salaries and wages and related fringe and indirect costs charged to the award
            for a professor who did not work on the NSF program.
          • For NSF award DUE-0094896: $4,689 of scholarship costs paid for students
            who were not eligible to participate in the NSF program.

OMB Circular A-110, Section 21, requires awardee financial management systems to
provide accurate, current, and complete disclosure of the financial results of each award;
records that adequately identify the source and application of funds; effective control over
and accountability for all funds, assuring that all funds are used solely for authorized

                                                                                         18
purposes; comparison of outlays with budget amounts for each award; written procedures for
determining the reasonableness, allocability and allowability of costs in accordance with the
provisions of the applicable federal and award requirements; and accounting records,
including cost accounting records, supported by source documentation. Additionally, NSF
GPM Section 451 requires the awardee’s certification of the truthfulness and accuracy of the
information presented on the FCTR each quarter. The accuracy of the information reported
should be based on the actual costs recorded in the awardee’s books and records for the
corresponding quarter.

Because the accounting personnel who were involved in the preparation and submission of
the FCTR reports and claimed unallowable costs were no longer employed at NMHU,
NMHU was unable to explain why these reporting inaccuracies and claimed unallowable
costs occurred.

Recommendation No. 3

NSF’s Division Directors of DIAS and DGA should ensure that NMHU develop and
implement written policies and procedures that require the reporting to NSF of actual costs
incurred for its NSF grants as recorded in NMHU’s official books and records. These
policies and procedures should also include reconciliation procedures so that NMHU ensures
that costs reported on its FCTRs to NSF are equal to the amounts recorded in its official
books and records.

Auditee’s Response

NMHU agreed with the finding that it had inaccurate reporting of program expenditures and
agreed with the questioned costs of $6,276 and $4,689. However, NMHU stated that the
$60,000 purchase of material and supplies was discussed with the NSF grant consultant and
approved.

Auditors’ Comment

NMHU did not provide in its response any written NSF approval to corroborate their
statement that the $60,000 of materials and supplied was approved by NSF. The finding
remains remain as stated and cannot be resolved until all recommendations have been
adequately addressed and NSF verifies that the proposed corrective actions have been
satisfactorily implemented.


Finding 4. Lack of Conflict of Interest Disclosures by PI and Co-PIs

NMHU could not provide conflict of interest disclosure statements for either the PI’s or Co-
PIs for any of its NSF awards. These conflict of interest disclosure statements were
unavailable even though NMHU maintains a conflict of interest policy that is in compliance
with NSF Grant Policy Manual requirements and requires PIs and Co-PIs to file these
statements on an annual basis or as new reportable significant financial interests are obtained.

NSF Grant Policy Manual, Section 510, requires each institution employing more than fifty
persons to maintain an appropriate written and enforced policy on conflict of interest. That
                                                                                         19
policy should require each principal investigator, co-principal investigator, and any other
person who is responsible for the design, conduct, or reporting of research or educational
activities funded or proposed for funding by NSF, to disclose to a responsible institutional
representative all significant financial interests (including those of the investigator’s spouse
and dependent children). Financial interests required to be reported include: (a) those that
would reasonably appear to be affected by the research or educational activities funded or
proposed for funding by NSF; or (b) those institutional entities whose financial interests
would reasonably appear to be affected by such activities. The term “significant financial
interest” means anything of monetary value, including, but not limited to, salary or other
payments for services, equity interest, and intellectual property rights. Such conflict of
interest policy must also ensure that investigators provide all required financial disclosures at
the time a proposal is submitted to NSF and must also provide for the updating of financial
disclosures during the period of the award, either on an annual basis or as new reportable
significant financial interests are obtained.

Our audit found that NMHU maintains a conflict of interest policy that is in compliance with
the requirements of the NSF Grant Policy Manual. NMHU further indicated that all
investigators assigned to NSF awards were required to complete, sign and submit conflict of
interest disclosure statements. However, NMHU was unable to locate the conflict of interest
forms submitted by the investigators for any of the NSF awards under audit.

NMHU management stated that the conflict of interest records were archived in a campus
building that was condemned. Those records were subsequently destroyed when the building
was demolished. As such, NMHU could not provide documentation which verified their
adherence to either their own or NSF’s conflict of interest policy requirements.

Recommendation 4

We recommend that the NSF Directors of DACS and DGA ensure that NMHU properly
document and maintain conflict of interest forms for all investigators working on NSF
funded programs.

Auditee’s Response

NMHU agreed that it could not provide conflict of interest statements and stated that it has
implemented procedures to address the lack of conflict of interest disclosures by PI’s and Co-
PI’s.

Auditors’ Comment

Overall NMHU’s comment appears responsive to the recommendation. However, the
finding cannot be resolved until the recommendation has been adequately addressed and NSF
verifies that the proposed corrective action has been satisfactorily implemented.

We considered these instances of noncompliance and internal control weaknesses in forming
our opinion on whether the Schedules of Award Costs (Schedule A-1 through A-3) present
fairly, in all material respects, costs claimed by NMHU on the FCTR and cost sharing
claimed for the period July 1, 1999 to July 31, 2004, in conformity with the National Science
Foundation Audit Guide, NSF Grant Policy Manual, federal and NSF award terms and
                                                                                              20
conditions, and determined that this report does not affect our report dated July 28, 2005, on
the financial schedule.

This report is intended solely for the information and use of NMHU’s management, the
National Science Foundation, the cognizant federal agency, the Office of Management and
Budget, and the Congress of the United States and is not intended to be and should not be
used by anyone other than these specified parties.




July 28, 2005




                                                                                           21
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION




                           22
                                                     NEW MEXICO HIGHLANDS UNIVERSITY
                                                 National Science Foundation Award No. ESR-9554468
                                                               Schedule of Award Costs
                                                  Award Period: September 15, 1995 to May 31, 2001
                                                      Audit Period: July 1, 1999 to May 31, 2001
                                                                         Final

                                                                                                                                     Questioned NSF Costs and
                                                                                     (Schedule C-1)           Claimed                 Questioned Cost Sharing
                                             (A)                                      Adjustments           Costs After
                                           Approved               (B)                     and             Adjustments and                           Schedule
              Cost Category                 Budget           Claimed Costs          Reclassifications     Reclassifications          Amount         Reference
     Direct costs:
      Salaries and wages                 XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX               $       3,520         B-1
      Fringe benefits                    XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX                         750         B-1
      Travel                             XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX                       1,992         B-1
      Participant support                XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX
     Other direct costs:
      Materials and supplies             XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX                     63,500          B-1
      Publication costs                  XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX
      Consultant services                XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX                      7,228          B-1
      Subcontracts                       XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX                     81,787          B-1
      Other                              XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX
          Total direct costs             XXXXXXXX             XXXXXXXX               XXXXXXXX             XXXXXXXX                    158,777
     Indirect costs                          403,657             156,761(C)                                  156,761                    2,006          B-1
     Costs per books of account
      greater than claimed to NSF                                (133,867) (B)                                 (133,867)
           Total                           $ 9,500,000          $ 2,879,551               $      -0-         $ 2,879,551         $ 160,783
     Cost sharing                          $ 5,549,616          $ 2,125,431(D)           $ 222,008           $ 2,347,439         $ 1,959,263           D-1
     (A)       Award budget for the period September 15, 1995 to May 31, 2001.

     (B)       The total representing NSF funded costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report – Federal Share
               of Net Disbursements as of the quarter ended June 30, 2001 for the period July 1, 1999 to May 31, 2001. Claimed costs reported above are taken
               directly from the NMHU’s books of account. However, NMHU’s books of account identified $133,867 of costs which were incurred but which
               were not claimed to NSF. See Finding No. 3.




                                                                                                                                                                Schedule A-1
     (C)       Indirect costs were budgeted and approved by NSF at 57% of direct salaries and wages. NMHU’s negotiated rate through their cognizant
               Federal Agency (U.S. Department of Health and Human Services) was 43% of MTDC. The indirect costs charged by NMHU utilizing the 57%
               rate resulted in lower indirect costs than would have occurred by utilizing the 43% MTDC rate.

     (D)       The amount of cost sharing required and claimed in the final year of this program for the period October 1, 1999 to September 30, 2000 are
               $1,110,493 and $2,125,431, respectively.

     See accompanying notes to this financial schedule.
23
                                                     NEW MEXICO HIGHLANDS UNIVERSITY
                                                 National Science Foundation Award No. DUE-0094896
                                                               Schedule of Award Costs
                                                       From March 1, 2001 to February 28, 2003
                                                                         Final


                                                                                                                  Claimed               Questioned NSF Costs
                                                                                        Adjustments             Costs After
                                               Approved                (A)                   and              Adjustments and                        Schedule
                   Cost Category                Budget            Claimed Costs        Reclassifications      Reclassifications     Amount           Reference

     Direct costs:
      Salaries and wages                     XXXXXXXX             XXXXXXXX               $                    XXXXXXXX              $
      Fringe benefits                        XXXXXXXX             XXXXXXXX                                    XXXXXXXX
      Travel                                 XXXXXXXX             XXXXXXXX                                    XXXXXXXX
      Participant support                    XXXXXXXX             XXXXXXXX                                    XXXXXXXX                    4,689         B-2

     Other direct costs:
      Materials and supplies                 XXXXXXXX             XXXXXXXX                                    XXXXXXXX
      Publication costs                           165                    -0-                                         -0-
     Costs claimed in excess of actual                               46,458                                      46,458

           Total direct costs                XXXXXXXX             XXXXXXXX                                    XXXXXXXX                    4,689

     Amount refunded to NSF on
      June 7, 2005                                                                           (47,378) (B)         (47,378)

           Total                               $ 101,248            $ 101,248             $ (47,378)             $ 53,870           $ 4,689


     (A)       The total representing costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report – Federal Share of Net
               Disbursements as of the quarter ended December 31, 2003. Claimed costs reported above are taken directly from the New Mexico Highlands
               University’s books of account.
     (B)       NMHU inaccurately reported expenditures on its NSF awards because it did not reconcile the costs it claimed on the
               FCTRs it submitted to NSF to its official books of record.




                                                                                                                                                                 Schedule A-2
     See accompanying notes to this financial schedule.
24
                                                     NEW MEXICO HIGHLANDS UNIVERSITY
                                                 National Science Foundation Award No. EAR-0216556
                                                               Schedule of Award Costs
                                                         From August 15, 2002 to July 31, 2004
                                                                        Final


                                                                                                                 Claimed
                                                                                       Adjustments             Costs After
                                              Approved                (A)                   and              Adjustments and        Questioned
                Cost Category                  Budget            Claimed Costs        Reclassifications      Reclassifications      NSF Costs

     Direct costs:
      Permanent equipment                    XXXXXXXX             XXXXXXXX            XXXXXXXX               XXXXXXXX                 $

     Less: costs per books of account
      over maximum total budget
      amount                                                              (15)                                       (15)

               Total                           $ 91,188             $ 91,188             $      -0-             $ 91,188              $      -0-


         (A)       The total representing costs claimed agreed with the expenditures reported on the Federal Cash Transactions Report – Federal Share of Net
                   Disbursements as of the quarter ended September 30, 2004. Claimed costs reported above are taken directly from the New Mexico
                   Highlands University’s books of account. However, NMHU’s books of account identified $15 of costs which were incurred but which were
                   not claimed to NSF.




                                                                                                                                                               Schedule A-3
     See accompanying notes to this financial schedule.
25
                                                                                   Schedule B-1

                       NEW MEXICO HIGHLANDS UNIVERSITY
                            LAS VEGAS, NEW MEXICO

                   National Science Foundation Award No. ESR-9554468
                               Schedule of Questioned Costs
                             From July 1, 1999 to May 31, 2001


1.   Salaries and Wages and Fringe Benefits

     A retroactive payroll adjustment for the Dean - College of Arts and Sciences and Tenured
     Professor of Mathematics and Education, for $3,520 was recorded on September 29, 2000
     for the payroll period ended June 30, 1994. This date was prior to this award’s inception
     date of September 15, 1995 and, in addition, this individual’s salary was not applicable to
     this NSF award. Therefore, we are questioning $3,520 of payroll and $750 of applicable
     fringe benefits.

2.   Travel

     We are questioning $1,992 of travel expenses claimed due to the lack of documentation to
     support the travel expenses as recorded in the books of account of NMHU. In three
     instances, totaling $1,570, out-of-town travel expense reports were filed by the employee
     for three different trips; however, the travel expenses included hotel lodging with no hotel
     bill. In one other instance, for $422, no documentation was provided by NMHU for this
     expense. Without the supporting documentation we cannot determine the propriety of these
     expenses.

3.   Material and Supplies

     We are questioning $63,500 of materials and supplies for the following reasons:

        1. The timing of the purchase of $60,000 in supplies for the purchase of scientific
           calculators in March 2001 is questioned. We were not provided an explanation or
           documentation by NMHU on how this expense/purchase benefited the program
           since it was so close to the end of the no-cost extension period of the award. The
           award ended May 31, 2001.

        2. There was one transaction in the amount of $3,500 for which NMHU was unable to
           provide documentation in the form of a vendor’s invoice.

4.   Consultant Services

     We are questioning $7,228 of consultant services because NMHU could not provide
     supporting documentation in the form of a vendor’s invoice to support the costs claimed for
     nine expenses.

                                                                                              26
                                                                             Schedule B-1 (Cont.)

                            NEW MEXICO HIGHLANDS UNIVRSITY
                       National Science Foundation Award No. ESR-9554468
                               Schedule of Questioned Costs (Cont.)
                                 From July 1, 1999 to May 31, 2001

5.      Subcontracts

     The total of $81,787 in questioned subawardee costs relate to the following two Coalition
     Members/Fiscal Agents:

        • Arizona Tribal Coalition/Arizona State University (ASU):We are questioning $4,793 of
          subawardee costs because ASU could not provide supporting documentation in the form
          of a vendor’s invoice to support the costs claimed for two expenses.

        • New Mexico County Coalition/Bernalillo Public Schools (BPS):We are questioning
          $76,994 of subcontract costs for the following reasons:

        1. Personnel costs totaling XXXX, which represents XXXX of the salaries and wages and
           applicable fringe benefits claimed to NMHU, because BPS could not provide any
           documentation (time records, personnel files, personnel activity reports) to support
           these costs.

        2. $2,615 because BPS could not provide supporting documentation in the form of a
           vendor’s invoice to support the costs claimed for three expenses.

        3. $16,113 because BPS could not provide consulting agreements for three different
           consultants. The agreements were necessary to determine the validity of consultant
           invoices because the invoices were not detailed and the documentation was necessary to
           validate the invoices marked “billing for services provided per agreement.” In addition,
           without the agreements we cannot determine if the services contracted for were those
           actually provided.

        4. Indirect costs were to be charged to the subcontract based upon MTDC. The BPS
           Federal and State rate was XXXX. In the course of applying this rate to MTDC we
           noted that for the period December 1, 1999 to June 30, 2000, BPS inadvertently over
           claimed indirect costs in the amount of $4,276. In addition to these indirect costs, we
           are also questioning indirect costs as a result of questioning direct costs of $70, 621
           ($51,893 + $2,615 + $16,113). The amount of this indirect questioned cost is $2,097
           XXXXXXXXXX. Total indirect subawardee costs questions is $6,373.




                                                                                                27
                                                                             Schedule B-1 (Cont.)

                          NEW MEXICO HIGHLANDS UNIVRSITY
                     National Science Foundation Award No. ESR-9554468
                             Schedule of Questioned Costs (Cont.)
                               From July 1, 1999 to May 31, 2001

6.     Indirect Costs

       NMHU claimed indirect costs to NSF based upon applying a XXX rate against claimed
       salaries and wages. As a result, based upon the questioning of $3,520 of salaries and wages
       we are questioning $2,006 of indirect cost XXXXXXXX.

OMB Circular A-110, Subpart C, Section 21, paragraph (7) requires that accounting records be
supported by source documentation. In addition, GPM 350 requires that financial records,
supporting documents and other records pertinent to a grant be retained by the grantee for a period
of three years from submission of the Final Project Report, which for NSF Award No. ESR-
9554468 would be until October 2005.




                                                                                                28
                                                                                       Schedule B-2

                          NEW MEXICO HIGHLANDS UNIVRSITY
                     National Science Foundation Award No. DUE-0094896
                                  Schedule of Questioned Costs
                           From March 1, 2001 to February 28, 2003


Participant Support Costs

We are questioning $4,689 of participant support cost for two NMHU students receiving
scholarships under this program. These students did not meet the eligibility criteria to receive
scholarships under this NSF award. One of the criteria for the scholarship was for the student to
meet a financial need requirement. NMHU’s Financial Aid Office screened the students in this
program, however, these two students were deemed not to meet the Pell Grant criteria (the
financial criteria for this program). Therefore, they should not have received scholarships and, as a
result, these costs should not have been claimed under the award.




                                                                                                  29
                                                                                Schedule C-1

                       NEW MEXICO HIGHLANDS UNIVERSITY
                   National Science Foundation Award No. ESR-9554468
                       Schedule of Adjustments and Reclassifications
                             From July 1, 1999 to May 31, 2001


The following is the adjustment to the cost sharing reported by New Mexico Highlands
University to NSF:

To record additional cost sharing of $222,008 from the Coalition Members/Fiscal Agents
listed below applicable to a revised amount of cost sharing in excess of the amount originally
reported to NMHU for the period October 1, 1999 to September 30, 2000.

                                                  Original       Revised        Amount of
      Coalition Member/Fiscal Agent               Amount         Amount         Adjustment

 New Mexico County Coalition/Bernalillo
  Public Schools                                 $ 644,200      $ 740,112       $ 95,912

 Southern Colorado        Coalition/Adams
  State College                                     64,000        124,568          60,568

 Arizona Tribal Coalition/Arizona State
  University                                        31,700         97,228          65,528

        Totals                                   $ 739,900      $ 961,908       $ 222,008




                                                                                            30
                                                                                    Schedule D

                      NEW MEXICO HIGHLANDS UNIVERSITY
                  National Science Foundation Award No. ESR-9554468
                                Schedule of Cost Sharing
                       From October 1, 1999 to September 30, 2000


                                                                       Questioned Cost Sharing
                                                   Cost Sharing
   Cost           Cost                             Claimed After
  Sharing        Sharing      Adjustments and     Adjustments and                    Schedule
  Required       Claimed      Reclassifications   Reclassifications    Amount        Reference

$ 1,110,493    $ 2,125,431      $ 222,008           $ 2,347,439       $ 1,959,263       D-1
    (A)            (A)        (Schedule C-1)




(A) The amounts represent the cost sharing required and reported for the period October 1,
    1999 to September 30, 2000.




The accompanying schedule referenced to explain questioned costs is an integral part of this
financial schedule.



                                                                                              31
                                                                                Schedule D-1

                       NEW MEXICO HIGHLANDS UNIVERSITY
                   National Science Foundation Award No. ESR-9554468
                      Summary Schedule of Questioned Cost Sharing
                        From October 1, 1999 to September 30, 2000


Questioned cost sharing of $1,959,263 is comprised of the following:

      Coalition Member/                                                Questioned    Schedule
        Fiscal Agent                Summary of Questioned Cost          Amount       Reference

New Mexico Tribal                No supporting documentation due
 Coalition/Santa Fe Indian        to loss of records destroyed by a
 School                           flood.                                $ 562,700      D-1a

UTE Four Corners                 No supporting documentation
 Coalition/Southern UTE           provided for all of the cost
 Indian Tribe                     sharing reported.                       741,531      D-1b

New Mexico County                No supporting documentation
 Coalition/Bernalillo Public      provided for some of the cost
 Schools                          sharing reported.                       472,343      D-1c

Southern Colorado                No supporting documentation
 Coalition/Adams State            provided for all of the cost
 College                          sharing reported.                       124,568      D-1d

    Sub-total for questioned cost sharing for
     Coalition Members                                                  1,901,142

Plus: Questioned costs related to cost sharing at New Mexico
  Highlands University for lack of adequate supporting
  documentation and the amount not supported by records. (See
  Schedule D-1e)                                                           58,121

    Total cost sharing questioned                                      $ 1,959,263




                                                                                           32
                                                                          Schedule D-1a
                      NEW MEXICO HIGHLANDS UNIVERSITY
                  National Science Foundation Award No. ESR-9554468
                      Detailed Schedule of Questioned Cost Sharing
                       From October 1, 1999 to September 30, 2000

New Mexico Tribal Coalition/Santa Fe Indian School:

The cost sharing reported by the New Mexico Tribal Coalition/Santa Fe Indian School to
NMHU was $562,700. In the process of auditing that amount of cost sharing, we were
informed by the Santa Fe Indian School that the records to support the cost sharing were
destroyed as a result of a flood at their premises during June 2002. Therefore we are
questioning 100% of the cost sharing reported to NMHU by the New Mexico Tribal
Coalition/Santa Fe Indian School due to the lack of supporting documentation, as follows:

                Description of Cost Sharing Reported                    Amount

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX

              Total cost sharing questioned                             $ 562,700

Auditee’s Response

NMHU officials in their September 2006 response letter provided a copy of a trial balance
received from the New Mexico Tribal Coalition/Santa Fe Indian School the for the year
ended June 30, 2000. This trial balance, per this coalition member, represented the cost
sharing for that year end applicable to the NSF Program.




                                                                                      33
                                                                         Schedule D-1a (Cont.)

                       NEW MEXICO HIGHLANDS UNIVERSITY
                   National Science Foundation Award No. ESR-9554468
                   Detailed Schedule of Questioned Cost Sharing (Cont.)
                        From October 1, 1999 to September 30, 2000


Auditors’ Comment

The trial balance provided is not sufficient documentation to alleviate the questioned cost
sharing. There were no records provided during the course of the audit or in the NMHU
response (i.e. general ledger, supporting detailed records in the form of payroll registers, time
and attendance records and paid vendor invoices) to support the amounts reflected in the trial
balance. Without supporting detailed records that would document the cost sharing claimed,
the cost sharing remains questioned as previously stated.




                                                                                              34
                                                                            Schedule D-1b
                      NEW MEXICO HIGHLANDS UNIVERSITY
                  National Science Foundation Award No. ESR-9554468
                      Detailed Schedule of Questioned Cost Sharing
                       From October 1, 1999 to September 30, 2000

UTE Four Corners Coalition/Southern UTE Indian Tribe:

The cost sharing reported by the UTE Four Corners Coalition/Southern UTE Indian Tribe to
NMHU was $741,531. In the process of auditing that amount of cost sharing, we were
informed by NMHU that UTE Four Corners could not provide any records to support the
cost sharing as reported. Thus, we are questioning 100% of the cost sharing reported to
NMHU by the UTE Four Corners Coalition/Southern UTE Indian Tribe due to the lack of
supporting documentation, as follows:

                Description of Cost Sharing Reported                      Amount

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX                                   XXXXXX

              Total cost sharing questioned                               $ 741,531



Auditee’s Response

NMHU officials in their September 2006 response letter stated that subsequent to the audit
UTE Four Corners Coalition was able to locate documentation for the actual cost sharing
provided. As part of the NMHU response voluminous documents were provided in the form
of listings of certain expenses and photocopies of various documents, including vendor
invoices, which per NMHU would support $859,397 of cost sharing.

Auditors’ Comment

A review of the documents provided revealed that there was no accounting linkage between
the $859,397 stated by NMHU as the actual cost sharing and the documents/summaries
provided. In addition, there were no explanations of how each type of cost sharing was
related to the NSF Program and how that cost sharing either benefited or supported the
program. Finally, there was no linkage from the listings of expenses purported to be cost
sharing to the detailed supporting documentation, making it almost impossible to understand
what and how each document supported a particular item of cost sharing. For example, there
was one invoice from a vendor for computer equipment for $89,896, of which only $50,000
was allocated to the NSF Program, with no explanation of how the $50,000 was an

                                                                                        35
appropriate allocation to this NSF Program. Without sufficient evidence of how the cost
share supported the NSF program, the cost sharing remains questioned as previously stated.




                                                                                       36
                                                                                        Schedule D-1c

                          NEW MEXICO HIGHLANDS UNIVERSITY
                      National Science Foundation Award No. ESR-9554468
                          Detailed Schedule of Questioned Cost Sharing
                           From October 1, 1999 to September 30, 2000


New Mexico County Coalition/Bernalillo Public Schools:

The cost sharing reported by the New Mexico County Coalition/Bernalillo Public Schools to NMHU was
$644,200. In the process of auditing that amount of cost sharing, we were informed by the Bernalillo
Public Schools that in preparation for the audit of cost sharing (and based on a review of their records)
that the actual cost sharing was $740,112. Therefore, we audited the revised amount of cost sharing of
$740,112 and noted that only $267,769 was adequately documented, leaving $472,343 as questioned. The
following presents the questioned cost sharing along with the reason the particular amount was
questioned.

         Type of Cost Sharing            Reason for Questioning Cost Sharing        Amount

XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX                     XXXXXX

XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX                     XXXXXX
XXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX


XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX                     XXXXXX

XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX                     XXXXXX

XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX                     XXXXXX

XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXX                 XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX                     XXXXXX

      Total cost sharing questioned                                                $ 472,343



                                                                                                      37
                                                                        Schedule D-1c (Cont.)

                       NEW MEXICO HIGHLANDS UNIVERSITY
                   National Science Foundation Award No. ESR-9554468
                   Detailed Schedule of Questioned Cost Sharing (Cont.)
                        From October 1, 1999 to September 30, 2000


Auditee’s Response

NMHU officials in their September 2006 response letter provided an explanation to each of
the type of cost sharing categories and why they believed that each cost sharing was either
allowable and/or documented. For example, the $286,200 questioned was related to “RSI
Program Training” and “Teachers’ Salaries” (which was questioned for the reasons stated
above in our finding). NMHU stated that they do not dispute our statement that there were
no detailed records listing each individual/teacher trained along with attendance records.
However, NMHU goes on to state that because there were no detailed records maintained
they calculated an “average salary” of $253.70 for teachers and $299.84 for superintendents
that attended training. In addition, explanations were also provided for the other cost sharing
questioned.

Auditors’ Comment

In all instances the written responses and accompanying documents provided by NMHU
were the same responses/documents provided to us during the audit as their means to support
the cost sharing. Our reasons for each of the items questioned remains as stated since no new
documents were provided to us.




                                                                                            38
                                                                                  Schedule D-1d
                       NEW MEXICO HIGHLANDS UNIVERSITY
                   National Science Foundation Award No. ESR-9554468
                       Detailed Schedule of Questioned Cost Sharing
                        From October 1, 1999 to September 30, 2000

Southern Colorado Coalition/Adams State College:

The cost sharing reported by the Southern Colorado Coalition/Adams State College to
NMHU was $64,000. In the process of auditing that amount of cost sharing, we were
informed by the Adams State College that in preparation for the audit of cost sharing (and
based on a review of their records) that the actual cost sharing was $124,568. Therefore, we
audited the revised amount of cost sharing of $124,568 and noted that none of this amount
was adequately documented, and therefore questioned the entire amount. The following
presents the questioned cost sharing along with the reason the particular amount was
questioned.
         Type of Cost Sharing               Reason for Questioning Cost Sharing         Amount

XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX
                                                                                        XXXXX

XXXXXXXXXXXXXXXXXXXXXXXX XXXXXXXXXXXXXXXXXXXXXXXXXXX
                         XXXXXXXXXXXXXXXXXXXXXXXXXXX                                    XXXXX

XXXXXXXXXXXXXXXXXXXXXXXX XXXXXXXXXXXXXXXXXXXXXXXXXXX
                         XXXXXXXXXXXXXXXXXXXXXXXXXXX
                         XXXXXXXXXXXXXXXXXXXXXXXXXXX
                         XXXXXXXXXXXXXXXXXXXXXXXXXXX
                         XXXXXXXXXXXXXXXXXXXXXXXXXXX                                    XXXXX

XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX              XXXXXXXXXXXXXXXXXXXXXXXXXXX
                                      XXXXXXXXXXXXXXXXXXXXXXXXXXX
                                      XXXXXXXXXXXXXXXXXXXXXXXXXXX
                                      XXXXXXXXXXXXXXXXXXXXXXXXXXX
                                      XXXXXXXXXXXXXXXXXXXXXXXXXXX
                                                                                        XXXXX

XXXXXXXXXXXXXXXXXXXXXXXX XXXXXXXXXXXXXXXXXXXXXXXXXXX
                         XXXXXXXXXXXXXXXXXXXXXXXXXXX
                                                                                        XXXXX

XXXXXXXXXXXXXXXXXXXXXXXX XXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXX                                                                XXXXX

     Total cost sharing questioned                                                     $ 124,568
                                                                                             39
                                  Schedule D-1d (Cont.)

                      NEW MEXICO HIGHLANDS UNIVERSITY
                  National Science Foundation Award No. ESR-9554468
                  Detailed Schedule of Questioned Cost Sharing (Cont.)
                       From October 1, 1999 to September 30, 2000

Auditee’s Response

NMHU officials in their September 2006 response letter provided explanations as to why
each of the items questioned were allowable as cost sharing. In addition, they referred to
various documents provided by Adams State College as support to their assertions of
allowability.

Auditors’ Comment

The documents that NMHU stated were received from Adams State College (in order to
substantiate NMHU’s responses and associated reasoning for cost sharing allowability) are
photocopies of exactly the same documents provided during the course of our audit between
January 2005 and July 2005. The documents and accompanying explanations provided by
Adams State College during our on-site audit time at NMHU were unacceptable then and
remain unacceptable for the reasons stated in the above finding.




                                                                                       40
                                                                            Schedule D-1e
                      NEW MEXICO HIGHLANDS UNIVERSITY
                  National Science Foundation Award No. ESR-9554468
                      Detailed Schedule of Questioned Cost Sharing
                       From October 1, 1999 to September 30, 2000

New Mexico Highlands University:

The cost sharing reported by NMHU was $81,300. In the process of auditing that amount of
cost sharing, we were informed by NMHU that in preparation for the audit of cost sharing
(and based on a review of their records) the cost sharing amount was $33,179. Therefore, we
audited the revised amount of cost sharing of $33,179 and noted that only $23,179 was
adequately documented, leaving $58,121 as questioned. The following presents the
questioned cost sharing along with the reason the particular amount was questioned.

      Type of Cost Sharing                Reason for Questioning Cost Sharing       Amount

XXXXXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXX
                                                                                    XXXXX

XXXXXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX                      XXXXX

XXXXXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXX                      XXXXX

XXXXXXXXXXXXXXXXXXX                    XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX
                                       XXXXXXXXXXXXXXXXXXXXXXX                      XXXXX

    Total cost sharing questioned                                                   $ 58,121

Auditee’s Response

NMHU officials in their September 2006 response letter stated they concur that there is no
documentation presently available for the above cost sharing questioned since those
records/documents were either in computers no longer available or records that were lost or
destroyed. In addition, NMHU explained the rationale of why they believed the various
items of cost sharing questioned should be considered allowable.

Auditors’ Comment

Since no source documents were provided to substantiate the cost sharing questioned the
amounts remain as stated.

                                                                                        41
                                                                                                    Schedule E

                         NEW MEXICO HIGHLANDS UNIVERSITY
                              National Science Foundation Awards
                      Summary Schedule of Awards Audited and Audit Results
                               From July 1, 1999 to July 31, 2004


Summary of Awards Audited

                Award Number                 Award Period                      Audit Period
                ESR-9554468                09/15/95-05/31/01                07/01/99-05/31/01
                DUE-0094896                03/01/01-02/28/03                03/01/01-02/28/03
                EAR-0216556                08/15/02-07/31/04                08/15/02-07/31/04

Summary of Questioned and Unresolved Costs


      NSF                                                            Questioned
     Award                               Claimed      Questioned        Cost           Unresolved       Unsupported
     Number         Award Budget         Costs          Costs         Sharing            Costs             Costs
ESR-9554468          $ 9,500,000(A) $ 2,879,551(B)    $ 160,783      $ 1,959,263        $    -0-          $   -0-
DUE-0094896          $   101,248     $    53,870      $    4,689     $           -0-    $    -0-          $   -0-
EAR-0216556          $    91,188     $    91,188      $        -0-    $          -0-    $    -0-          $   -0-

(A) For the period September 15, 1995 to May 31, 2001.
(B) For the period July 1, 1999 to May 31, 2001.


Summary of Questioned Costs by Explanation
                                                     Questioned           Internal
                                                       Cost               Control           Noncompliance
                   Condition                          Amount              Finding              Finding
•   Salary for an individual professor who did
    not work on the RSI Program, plus the
    applicable fringe benefits and indirect costs.    $    6,276                                    X
•   Lack of documentation to support costs
    claimed to NSF for travel, materials and
    supplies and consulting services.                     12,720                                    X
•   Material and supplies which were purchased
    towards the conclusion of the program with
    no evidence provided as to the benefit the
    RSI Program derived from this purchase.               60,000                                    X
•   Subcontract costs questioned related to
    missing on inadequate documentation.                  81,787             X                      X
•   Participant support costs related to
    scholarship costs paid for students who were
    not eligible to participate in the NSF
    Program.                                               4,689                                    X
     Total questioned costs                           $ 165,472



                                                                                                              42
                                                                               Schedule E (Cont.)

                       NEW MEXICO HIGHLANDS UNIVERSITY
                            National Science Foundation Awards
                 Summary Schedule of Award Audited and Audit Results (Cont.)
                             From July 1, 1999 to July 31, 2004

Summary of Questioned Cost Sharing by Explanation

                                                                    Internal
                                                Questioned          Control          Noncompliance
                  Condition                      Amount             Finding             Finding

Lack of supporting documentation or
 inadequate documentation                      $ 1,959,263             X                    X



Summary of Noncompliance and Internal Control Findings

                                                                                        Amount of
                                                                        Amount of       Claimed/
                                    Noncompliance       Material,       Questioned       Incurred
                                      or Internal      Reportable         Cost            Costs
           Condition                   Control?        or Other?         Effected        Effected

•   Cost sharing accounting        Noncompliance and
     deficiencies                   Internal Control     Material      $ 1,959,263     $ 2,347,439

•   Subawardee monitoring          Noncompliance and
     deficiencies                   Internal Control     Material      $    81,787     $ 2,218,038

•   Cost reporting deficiencies    Noncompliance and
                                    Internal Control     Material       $       -0-     $       -0-

•   Lack of conflict of interest
     disclosures by PI and
     Co-PI’s                       Noncompliance and     Material       $       -0-     $       -0-
                                    Internal Control




                                                                                                43
                       NEW MEXICO HIGHLANDS UNIVERSITY
                          National Science Foundation Awards
                              Notes to Financial Schedules
                           From July 1, 1999 to July 31, 2004

1.   Summary of significant accounting policies:

       Accounting basis

       The accompanying financial schedules have been prepared in conformity with
       National Science Foundation (NSF) instructions. Schedules have been prepared from
       the reports submitted to NSF. The basis of accounting utilized in preparation of these
       reports differs from accounting principles generally accepted in the United States of
       America. The following information summarizes these differences:

       a. Equity

       Under the terms of the award, all funds not expended according to the award
       agreement and budget at the end of the award period are to be returned to NSF.
       Therefore, the awardee does not maintain any equity in the award and any excess cash
       received from NSF over final expenditures is due back to NSF.

       b. Equipment

       Equipment is charged to expense in the period during which it is purchased instead of
       being recognized as an asset and depreciated over its useful life. As a result, the
       expenses reflected in the statement of award costs include the cost of equipment
       purchased during the period rather than a provision for depreciation.

       The equipment acquired is owned by New Mexico Highlands University while used
       in the program for which it was purchased or in other future authorized programs.
       However, NSF has the reversionary interest in the equipment. Its disposition, as well
       as the ownership of any proceeds there from, is subject to Federal regulations.

       c. Inventory

       Minor materials and supplies are charged to expense during the period of purchase.
       As a result, no inventory is recognized for these items in the financial schedules.

       d. Income taxes

       New Mexico Highlands University is an instrumentality of the State of New Mexico
       and is exempt from income taxes under Section 115 of the Internal Revenue Code.




                                                                                          44
                         NEW MEXICO HIGHLANDS UNIVERSITY
                            National Science Foundation Awards
                                Notes to Financial Schedules
                             From July 1, 1999 to July 31, 2004

2.     NSF cost sharing and matching:

       The following represents the cost sharing requirements and actual cost sharing for the
       period October 1, 1999 to September 30 2000 on NSF Award No. ESR-9554468. This
       time frame represents the only reporting period on this award that cost sharing was
       applicable to the audit period of this award which was July 1, 1999 to May 31, 2001.

                        (A)             (B)
                     Actual Cost     Additional         (C)             Net
     Cost Sharing     Sharing       Cost Sharing    Questioned      Cost Sharing     Over/
      Required        Claimed       Not Claimed     Cost Sharing    (A)+(B)-(C)     (Under)

     $ 1,110,493     $ 2,125,431    $ 222,008        $ 1,959,263     $ 388,176     $ (722,317)




                                                                                           45
APPENDIX A – AUDITEE’S COMMENTS TO REPORT




                                            46
   NEW MEXICO HIGHLANDS UNIVERSITY

DETAILED (PERSONAL IDENTIFYING INFORMATION) ON
             SCHEDULES B-1 AND B-2
                           NEW MEXICO HIGHLANDS UNIVERSITY
                       National Science Foundation Award No. ESR-9554468
                  Personal Identifying Information to Schedule of Questioned Costs
                                 From July 1, 1999 to May 31, 2001

Salaries and Wages:

The name of the employee is XXXXXXXXXXX.

Travel:

                                                            NMHU
            Name of Payee                         Date     Acct. No.   Amount
XXXXXXXXXXXXXXXXXXXXXX                          12/02/99     7611      $     326
XXXXXXXXXXXXXXXXXXXXXX                          08/23/00     7612            619
XXXXXXXXXXXXXXXXXXXXXX                          05/10/01     7611            422
XXXXXXXXXXXXXXXXXXXXXX                          05/30/01     7612            625


   Total travel questioned costs                                       $ 1,992

Materials and Supplies:

                                                            NMHU
            Name of Payee                         Date     Acct. No.   Amount
Education for the Future Initiative             05/15/00     7151      $ 3,500
Casio                                           03/13/01     7151          60,000


   Total material and supplies questioned costs                        $ 63,500

Consultant Services:

                                                            NMHU
            Name of Payee                         Date     Acct. No.   Amount
XXXXXXXXXXXXXXXXXXXXXX                          06/30/00     7111      $ 1,905
XXXXXXXXXXXXXXXXXXXXXX                          08/07/00     7112            521
XXXXXXXXXXXXXXXXXXXXXX                          08/07/00     7112            484
XXXXXXXXXXXXXXXXXXXXXX                          08/07/00     7112            521
XXXXXXXXXXXXXXXXXXXXXX                          08/07/00     7112            503
XXXXXXXXXXXXXXXXXXXXXX                          08/07/00     7112            521
XXXXXXXXXXXXXXXXXXXXXX                          04/26/01     7112           1,173
XXXXXXXXXXXXXXXXXXXXXX                          05/10/01     7112            600
XXXXXXXXXXXXXXXXXXXXXX                          06/05/01     7112           1,000


   Total consultant services questioned costs                          $ 7,228
                              NEW MEXICO HIGHLANDS UNIVERSITY
                          National Science Foundation Award No. ESR-9554468
                 Personal Identifying Information to Schedule of Questioned Costs (Cont.)
                                    From July 1, 1999 to May 31, 2001

Subcontracts:

Arizona State University:

                 Name of Payee                  Date               Transaction ID   Amount

 National Museum of the American Indian       11/18/99        PV AV 002017760       $ 1,500
 Unknown/unidentified (A)                     06/02/00         JV SPN92002208         3,293

    Total Arizona State University                                                  $ 4,793

 (A) Designation per books of account (item was a journal entry)

Bernalillo Public Schools:

                 Name of Payee                  Date               GL Account No.   Amount

 New Mexico Highlands University              06/12/98        25424.02.3315.025     $ 1,500
 Springer Municipal                           11/18/99        25424.02.3315.025         665
 Espanola Public Schools                      12/15/99        25424.02.3315.025         450
      Subtotal                                                                        2,615

 XXXXXXXXXXXXXXXXXXXXXX                       10/21/99        25424.02.3315.025         900
 XXXXXXXXXXXXXXXXXXXXXX                       11/17/99        25424.02.3315.025         450
 XXXXXXXXXXXXXXXXXXXXXX                       01/06/00        25424.02.3315.025       2,566
 XXXXXXXXXXXXXXXXXXXXXX                       12/22/99        25424.02.3315.025       3,134
 XXXXXXXXXXXXXXXXXXXXXX                       12/22/99        25424.02.3315.025       2,599
 XXXXXXXXXXXXXXXXXXXXXX                       11/16/99        25424.02.3315.025         900
 XXXXXXXXXXXXXXXXXXXXXX                       12/22/99        25424.02.3315.025         900
 XXXXXXXXXXXXXXXXXXXXXX                       05/17/00        25424.02.3315.025         300
 XXXXXXXXXXXXXXXXXXXXXX                       05/17/00        25424.02.3315.025         357
 XXXXXXXXXXXXXXXXXXXXXX                       06/21/00        25424.02.3315.025         775
 XXXXXXXXXXXXXXXXXXXXXX                       11/04/99        25424.02.3315.025         900
 XXXXXXXXXXXXXXXXXXXXXX                       12/15/99        25424.02.3315.025         900
 XXXXXXXXXXXXXXXXXXXXXX                       05/09/00        25424.02.3315.025         300
 XXXXXXXXXXXXXXXXXXXXXX                       05/09/00        25424.02.3315.025         357
 XXXXXXXXXXXXXXXXXXXXXX                       06/07/00        25424.02.3315.025         775
      Subtotal                                                                       16,113

    Total Bernalillo Public Schools                                                 $ 18,728
                          NEW MEXICO HIGHLANDS UNIVERSITY
                     National Science Foundation Award No. DUE-0094896
             Personal Identifying Information to Schedule of Questioned Costs (Cont.)
                             From March 1, 2001 to February 28, 2003


Participant Support Costs:

          Name of Student          Amount


XXXXXXXXXXXXXXXXXXX                $ 1,563
XXXXXXXXXXXXXXXXXXX                  3,126


  Total                            $ 4,689
